Attorneys for Petitioner
John J. Bursch
Counsel of Record
*3 copies

Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001

616-450-4235

jbursch@adflegal.org
Party name: Thomas More Law Center
Derek L. Shaffer
Counsel of Record
*3 copies

Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005

202-538-8000

derekshaffer@quinnemanuel.com
Party name: Americans for Prosperity Foundation
Attorneys for Respondent
Aimee Athena Feinberg
Counsel of Record
*3 copies

California Department of Justice
1300 I Street
Sacramento, CA 95814

916-210-6003

Aimee.Feinberg@doj.ca.gov
Party name: Xavier Becerra, in his official capacity as the Attorney General of California
Elizabeth B. Prelogar
Counsel of Record
*1 copy

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: United States

202-514-2217

